,

Case^fePStPr337octn0eoUr0§M^B,fU9^—RIeUTHiMcfgiS}D072D^ag^§?2^es: 5
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Tlniteh States Court of Appeals

CERTIFIED COPY

For the Seventh Circuit
Chicago, Illinois 60604
Submitted October 15,2020"
Decided November 19, 2020

of tii^nitedl^e^^o '
Couftc^PPeals;fpr^B?/
SeveutlvCDirculfe.' ^

Before
JOEL M. FLAUM, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 20-1397
Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.

VINCENZA PRESTI,
Plaintiff-Appellant,

No. 18 C 1710

v.
CHAD F. WOLF, Acting Secretary of the
U.S. Department of Homeland Security,
Defendant-Appellee.

Virginia M. Kendall,
Judge.

ORDER
Vincenza Presti, an immigration officer at the United States Citizenship and
Immigration Services, believes that she was demoted and given negative feedback on
her job performance based on her Italian descent and in retaliation for complaints she
had filed with the Equal Employment Opportunity Commission. She sued the Secretary
* We have agreed to decide the case without oral argument because the briefs and
record adequately present the facts and legal arguments, and oral argument would not
significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

Case:G£&432GM3S7ocu[0eoUr0§iff113761094 Filed:RiM9(E0Q6/2O23lage£d||es: 5

No. 20-1397

Page 2

of Homeland Security under Title VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e2. The district court entered summary judgment for the defendant, concluding that no
reasonable jury could find that USCIS's employment decisions were discriminatory or
retaliatory. We affirm.
Presti joined USCIS in 2002 as an immigration officer. Over the next eleven years,
she filed two complaints with the EEOC about discrimination on the job. In her first
complaint, in 2008, she stated that she had been passed over for a role because of her
Italian heritage. The EEOC made a finding of discrimination, and USCIS offered her the
job she sought. The second, in 2013, concerned feedback in her annual review. That
complaint was settled through mediation.
In 2015, Presti's supervisor gave her some more negative feedback in an
otherwise positive annual performance review. He wrote that Presti came across as
confrontational and demanding and needed to work on her communication, but he also
favorably graded her overall score as 4.4 out of a possible 5 points, placing her in the
category of "exceeding expectations." Presti objected to the comments about her
communication style, which she defended as "open," "direct," and rooted in her Italian
background and culture. Management edited the written feedback so that she and the
supervisor approved of it.
Around this time, Presti applied for a promotion to Level III Immigration Officer.
Applicants were scored based on their interview performance and references, and the
two applicants with the highest scores were promoted. Presti's total score was the fifth
highest of the seven candidates.
Presti then filed a new EEOC complaint stating that she received negative
feedback and was passed over for promotion based on her Italian descent. The EEOC
found the charges unsupported.
In March 2018, Presti applied to be a Supervisory Immigration Services Officer.
At the time, she already was serving as a supervisor in a temporary capacity. She
interviewed for the position, received the highest score in the selection process, and was
offered the job.
In the meantime, Presti sued the Secretary of Homeland Security under Title VII
of the Civil Rights Act of 1964,42 U.S.C. § 2000e-2, alleging that the two episodes from

Case:G£fe4320-1397ocur©eotjrfl@Piti3761094 Filed:Rinaf<S9£E9E7Qe/2023lage^?^|es: 5

No. 20-1397

Page 3

2015—receiving negative feedback and being passed over for promotion—reflected
discrimination based on her national origin and retaliation for her earlier EEOC activity.
After she assumed the supervisory position, Presti's performance declined. An
early, first review garnered positive feedback, but complaints about her work followed.
Presti's supervisor noted that Presti micromanaged her team's work product and
struggled to build relationships, and Presti's coworkers complained about her treatment
of the team. At Presti's mid-year review, her supervisor noted that her communication
style was overly direct and unpleasant, that she continued to micromanage her team's
work product, and that her lack of familiarity with the computer systems and relevant
law impeded her ability to assist her team and adjudicate cases. Even after this review,
Presti's supervisor noted no change in her performance.
In September, USCIS demoted Presti for poor performance. In a demotion letter,
her supervisor explained that Presti had failed to improve in her performance or to
meet the job's expectations, despite receiving mentorship and ongoing feedback.
Presti then amended her complaint to allege that the agency had demoted her in
retaliation for her earlier EEOC filings.
During the discovery that ensued, Presti twice filed motions to compel the
agency to produce documents she regarded as critical to her 2015 non-promotion claim.
She first sought resumes and demographical data for positions to which she had not
applied between 2016 and 2018. After hearing argument from Presti on the motion, the
magistrate judge presiding over discovery denied the request as irrelevant because
Presti was not challenging those selection decisions. Presti later sought the resumes of
candidates whom USCIS had selected for promotion between 2014 and 2016, the same
period during which she was denied a promotion. The magistrate judge held another
hearing on the request before granting it in part, ordering USCIS to turn over the
resumes of candidates for any position to which Presti had applied.
The district court ultimately entered summary judgment for USCIS. Based on the
evidence presented, the court explained, no reasonable jury could conclude that Presti
suffered an adverse employment action in 2015 upon receiving negative feedback—
feedback that later was changed to her liking—or that any discriminatory or retaliatory
motive influenced her non-promotion in 2015 or her demotion in 2018.

.

Case

No. 20-1397

320-1397ocu©eDtjrf)©fiti20,’61094 Filed: niiBtTCCOTBe^OHa'geff^es: 5

Page 4

On appeal, Presti first challenges the district court's denials of her motions to
compel. In her view, she needed the requested resumes to identify possible comparators
to prove discrimination regarding the 2015 non-promotion.
The district court acted within its discretion to deny both motions. When
deciding motions to compel the production of personnel files, courts have "broad
discretion to limit a request... in order to prevent the dissemination of personal or
confidential information about employees." Brunker v. Schwan's Home Serv., Inc.,
583 F.3d 1004,1010 (7th Cir. 2009). This discretion extends to limiting discovery over
similarly situated comparators in discrimination cases. See id.; Balderston v. Fairbanks
Morse Engine; 328 F.3d 309, 320 (7th Cir. 2003). Here, the district court properly found
irrelevant Presti's first discovery request regarding selection decisions for jobs for which
she had never applied. See Balderston, 328 F.3d at 320. Further, the court appropriately
denied in part her request for resumes of successful candidates for promotion from 2014
to 2016 because she sought resumes of applicants for jobs different from the one to
which she had applied, and there is no evidence that selection decisions in those cases
were made by the same decision-makers or using the same standards. See Brunker,
583 F.3d at 1010.
Presti next challenges the entry of summary judgment on her claims arising from
the negative feedback she received on her 2015 annual review. We understand her to
argue that the district court did not view the record in a light favorable to her when it
concluded that the negative feedback—which criticized her communication style and
postdated her EEOC complaints—was not discriminatory or retaliatory.
This challenge is unpersuasive. To stave off summary judgment, Presti had to
produce evidence to suggest that she suffered an adverse employment action because of
her national origin or in retaliation for her earlier, protected EEOC activity.
See McDaniel v. Progress Rail Locomotive, Inc., 940 F.3d 360, 367, 370-71 (7th Cir. 2019).
But, as the district court concluded, no reasonable juror could conclude that the
negative feedback amounted to an adverse action (i.e., one that resulted in a significant
change in an employment condition, such as income or career prospects, see Boss
v. Castro, 816 F.3d 910, 917 (7th Cir. 2016)). She received an overall score that "exceeded
expectations," the negative feedback was revised to meet her approval, and she offers
no evidence that the feedback affected her pay or job trajectory. And even if negative
criticism on an otherwise strong evaluation could constitute an adverse employment
action, Presti offered no evidence that USCIS's proffered rationale for the feedback—

Case:CBife4320-1397ocuifieDtji13§iffti3^1O94 Filed iRifefdQO^QO^O^agef^es: 5

Page 5

No. 20-1397
that her communication style was impeding her ability to work with others and
perform her job effectively—was pretextual. See id. at 916-18.

Presti relatedly challenges the district court's ruling that she lacked evidence
from which a jury could infer that she was demoted in 2018 in retaliation for her EEOC
complaints. She maintains that the court overlooked material evidence, namely the
positive feedback accompanying her early reviews in that job. But this argument misses
the court's broader point that her evidence was insufficient to persuade a reasonable
juror that protected activity was the but-for cause of her demotion. See Abrego v. Wilkie,
907 F.3d 1004,1014 (7th Cir. 2018). The undisputed record shows that USCIS demoted
her after several months of recorded poor performance, including struggles with
managing her team, building relationships, and accessing the systems necessary to do
the job.
We have considered Presti's other arguments, and none has merit.
AFFIRMED

Case: 20-1397

Filed: 01/28/2021

Document: 25

Pages: 1

For the Seventh Circuit
Chicago, Illinois 60604
January 28, 2021
Before
JOEL M. FLAUM, Circuit Judge
O - F i ' ■:

ILANA DIAMOND ROVNER, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 20-1397
VINCENZA PRESTI,
Plaintiff-Appellant,

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 18 C 1710

v.
DAVID P. PEKOSKE, Acting Secretary of
Homeland Security,
Defendant-Appellee.

Virginia M. Kendall,

Judge.

ORDER
On consideration of the Petition for Rehearing, filed by Plaintiff-Appellant on
January 11,2021, all members of the original panel have voted to DENY the Petition for
Rehearing.
Accordingly, the Petition for Rehearing is DENIED

V

Case: l:18-cv-01710 Document#: 101 Filed: 02/20/20 Page 1 of 15 PagelD #:2258

*

ji

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
VINCENZA PRESTI,

)
)
)
)
)
)

Plaintiff,
v.

CHAD WOLF, Acting Secretary,
U.S. Department of Homeland
Security,
Defendant.

No, 18 C 1710
Judge Virginia M. Kendall

)
)
)
)

MEMORANDUM ORDER AND OPINION
Vincenza Presti, an employee of United States Citizenship and Immigrations Services
(“USCIS”), filed a complaint under 42 U.S.C. § 1983 against the Secretary of Homeland Security
in which she alleges that USCIS discriminated against her on the basis of her national origin and
in retaliation for her earlier Equal Employment Opportunity (EEO) activity by: (1) not promoting
her in 2015, (2) giving her some negative feedback in a 2015 performance appraisal, and (3)
demoting her in 2018. She also purports to make out a whistleblower claim and raises other
miscellaneous grievances about the workplace. Defendant now moves for summary judgment on
all counts. For the reasons set forth below, Defendant’s Motion for Summary Judgment [72] is
granted.
BACKGROUND
Unless otherwise indicated, the following facts are undisputed for purposes of this Motion.
Presti began her employment with USCIS in 2002 as an immigration information officer.
(Dkt. 74 ^ 1.) In 2004, she was selected for a term position as a district adjudications officer. (Id.;
Def. Ex. 3 at p. 14.) That term appointment expired in 2008, after which Presti was not selected
1

Case: l:18-cv-01710 Document #: 101 Filed: 02/20/20 Page 2 of 15 PagelD #:2259

for a permanent position. (Dkt. 74

2.) Presti filed an EEO complaint in 2008, which resulted in

a finding by the EEOC that USCIS had discriminated against her. (Id.; PI. Ex. A-9.) Presti
subsequently returned to USCIS in 2011 as a level-2 immigration services officer (“ISO-2”).
(Dkt. 74 K 2; Def. Ex. 3 at p. 19.) In 2013, she filed a second EEO complaint, which was resolved
through mediation. (Dkt. 74 ^ 6.)
USCIS has three levels of ISO positions, the most senior of which is an ISO-3. (Id. H 3.) In
2015, USCIS posted a vacancy for an ISO-3 position in USCIS’s Chicago office, and Presti
applied. (Id.

7.) The posted position was open to internal candidates only. (Id.) Applicants for

the position submitted resumes and responded to questionnaires in support of their applications.
(Id.) USCIS’s Human Resources Center in Burlington, Vermont conducted a preliminary review
of all the applications and then sent a list of nine eligible candidates to the Chicago office.
(Id.

7, 13.) Presti was one of those nine candidates. (Id. H 13.) The Chicago office invited all

nine eligible candidates to interview for the position, but only eight candidates chose to be
interviewed. (Dkt. 85-1 at p. 60.) One of those eight candidates withdrew from consideration
“shortly after the interview,” leaving a total of seven candidates remaining for the position. (Id.)
USCIS determined who to hire for this position by calculating a final score for each
applicant. (Dkt. 74 ^ 8.) The final score consisted of two components: interview performance
(55%) and references (45%). (Id.) The same three USCIS employees, Nick Milissis, Monica Toro,
and William Connor, interviewed each of the applicants. (Id. ^ 14.) At the time of the interview,
Nick Milissis was aware of Presti’s prior EEO activity, but William Connor was not. (PI. Ex. B10
at pp. 185-86; P. Ex. 9 at pp. 179-180). No information in the record indicates whether Monica
Toro was aware of Presti’s prior activity at the time of Presti’s interview. The panelists asked the
same set of questions of all the applicants. (Id. f 16.) These panelists all received un-scrubbed

2

Case: l:18-cv-01710 Document #: 101 Filed: 02/20/20 Page 3 of 15 PagelD #:2260

resumes from each of the applicants. {Id. If 15.) Each panelist scored each applicant on their
answers to a list of pre-determined questions. {Id. ^ 16.) If the panelists’ scores were more than
15% apart for a given applicant, the panelists discussed their differences and adjusted scores based
on consensus. {Id.) Presti received a score of 41.526 out of a possible 75.5 for the interview
component of her application, placing her in fourth among the seven remaining applicants.
(Def. Ex. 9 at p. 204; Def. Ex. 5 at p. 169). i
After the interview portion of the applicant process was over, USCIS solicited two
references from the applicants. (Dkt. 74 If 9.) Because the ISO-3 position is a supervisory position,
USCIS sought references from the applicants’ supervisors. {Id.) However, the hiring Standard
Operating Procedures (“SOP”) for this vacancy “were not as clear as it [sic] could have been
regarding the need for both references to be individuals who had supervised the candidate.”
(Def. Ex. 4 at p. 161.) Four of the seven candidates, including Presti, did not provide two
supervisory references. (Dkt. 7419.) Presti submitted one supervisory reference, Michelle Wong,
and one co-worker reference, Hearold Lacy. (PI. Resp. ^ 9.) Michelle Wong gave Presti a 10 out
of 20, noting that she thought Presti would benefit from more experience before becoming an ISO3. (Dkt. 74 ^ 10.)2 Because Lacy was not a supervisor, management instead contacted Stacy
Summers, one of Presti’s supervisors, to provide a second reference. {Id.

11.) Summers gave

Presti a 15 out of 20. {Id.)
Once USCIS combined the reference and interview scores, Presti received a total combined
score of 83.18. (Def. Ex. 5 at p. 171.) USCIS eventually selected two applicants for ISO-3

1 Presti denies that her application ranked fourth following the interviews, but she provides no citation to the record
in support of this assertion. (PI. Add’l Facts f 2.) She states that “Plaintiffs scores were lowered after the interview
was conducted” while others’ were increased (Id.), but she provides no citation to demonstrate the accuracy of this
statement. The only evidence in the record is that she ranked fourth out of seven following the interview portion of
the application.
2 Presti purports to deny the facts contained within this sentence, but she provides no citations to support her denial.
Defendant’s assertions of fact, by contrast, are supported by citations to the record.

3

Case: l:18-cv-01710 Document#: 101 Filed: 02/20/20 Page 4 of 15 PagelD #:2261

positions, Thomas Powers and Shanita Tucker, whose scores were 102.68 and 91.85, respectively.
{Id.) Thomas Cioppa, the District Director of the Chicago office, then chose to hire both Powers
and Tucker for the open position on the basis that they received the highest scores in the application
process. (Def. Ex. 5 at pp. 171-72.) Cioppa was aware that Presti is of Italian heritage.
(PI. Ex. B1 at pp. 4-6.)3 Even if Presti had submitted a second supervisory reference of her
choosing and received a 20 out of 20, her total score still would have been lower than both Tucker
and Powers. (Def. Ex. 9 at p. 205.)4 When asked who she would have submitted as her second
supervisory reference if management had given her the opportunity, Presti testified that she did
not know. (Def. Ex. 3 at p. 196.)
For purposes of her claims related to her non-selection for the ISO-3 positions, Presti names
Tucker and Powers as her comparators. (PI. Resp. ^[3.)5 Tucker is a woman of “African and Latino
origin” with previous EEO activity. (PI. Ex. B15 at p. 223.) Tucker has worked in USCIS’s
Chicago field office since 2008. {Id. at p. 222.) Powers is a Caucasian male. (Def. Ex. 5 at p. 171.)
It appears that Powers had no previous EEO activity. (PI. Ex. B1 at p. 19.) Powers had extensive
training and experience in immigration-related jobs, including years of service with another federal
agency, experience with asylum adjudications, and service as a field intelligence officer. (Dkt. 74
^ 20; Def. Ex. 5 at p. 171-72.)

3 Presti was bom in Italy. (Def. Ex. 5 at p. 169.)
4 Presti purports to deny the facts contained in this sentence but provides no citation to the record in support of her
denial. She leaves the exhibit reference blank: “Plaintiff denies that she would have been 5th in place if coworkers
had provided 20 out of 20 points for references since she scored the highest off the list of eligible candidate [sic] (94),
and since manipulation of scoring occurred after the interview was complete. (Exhibit ).” (PI. Resp. | 12.) She
provides no support for her assertion that her score was 94, not 83.18, nor does she provide support for the assertion
that anyone’s score was manipulated.
5 Presti has made various statements about who she is naming as her comparators. Most recently, she named both
Tucker and Powers as her compactors. Because Presti is pro se, the Court affords her the benefit of the doubt and
assumes that she properly identified both Tucker and Powers as comparators.

4

Case: l:18-cv-01710 Document#: 101 Filed: 02/20/20 Page 5 of 15 PagelD #:2262

USCIS gave Presti a Performance Plan Appraisal (PPA) every year during her time as an
ISO. (Dkt. 74 U 21.) In 2015, her first-line supervisor, Alejandra Dominguez, performed Presti’s
PPA and gave her a 4.5 out of 5, a score indicating that Presti had “achieved excellence.”
(Dkt. 74 21.) In prior years, Presti’s scores were 4.2, 4.3, 4.5, and 4.6. {Id.) Although Presti
received an “achieved excellence” rating, she objected to the narrative section of the PPA in which
Presti’s supervisors noted that “it is recommended that ISO Presti continue to improve in applying
the right tone to her email communications to management.” {Id.

22.) Management asked Presti

to “soften her approach” when communicating with management because some of her
communications could be interpreted as “confrontational and demanding.” {Id. If 23;
Def. Ex. 11 at p. 213.) Presti believes that these criticisms were really about her Italian heritage,
to which she attributes her open and direct communication style. (Dkt. 74 ^ 22.) Dominguez has
never made any comments to Presti about her national heritage. (Def. Ex. 3 at p. 271.) Dominguez
also noted that Presti was sometimes reluctant to assist co-workers with their assignments, and
Dominguez asked Presti to be more receptive to assisting with the occasional reassignment. (Dkt.
74 If 23.) Presti objected to the constructive criticism in the 2015 PPA, and management agreed to
alter the narrative in the PPA to Presti’s satisfaction. {Id. If 24.)
In April 2018, USCIS promoted Presti to the position of Supervisory Immigration Services
Officer (SISO). (Dkt. 74127.) As a new SISO, Presti was to serve a 12-month probationary period
in order to assess her performance and her transition to a management position. {Id. 130.) Between
April and June of 2018, Branch Chief Yolanda Vera served as Presti’s supervisor. {Id. If 29.) Vera
issued a positive review of Presti’s.performance during those two months. (PI. Ex. C3 at pp. 4-5.)
Starting in June 2018, Presti reported to the new Branch Chief, Pauline Woodson. (Dkt. 74

30.)

Between June and September of 2018, Woodson grew dissatisfied with Presti’s performance as a

5

Case: l:18-cv-01710 Document #: 101 Filed: 02/20/20 Page 6 of 15 PagelD #:2263

SlSO, and eventually sought Presti’s demotion back to ISO. (PI. Ex. C9; Dkt. 74 f 33.)
Specifically, Woodson noted that “Presti was excessively micromanaging her direct reports and
needed to build better relationships with her subordinate employees.” (Def. Ex. 27 at p. 1.)
Woodson also noted that Presti, inter alia, “became combative in response to concerns raised by
management about her progress as a supervisor,” “mismanaged several mandamus cases,” and
‘did not complete necessary work on her time sensitive assignment of responsibility for replying
to Congressional inquiries on cases within the Adjudications Unit.” (Def. Ex. 27 at pp. 5-6.)
Woodson met with Presti in one-on-one meetings and provided her with feedback.
(PI. Add’l Facts 1) 7.) Presti acknowledges that she had “issues with managing timely all databases
related to attorney inquiries, Congressional inquiries, and mandamus case assignments all at once.”
(Id.) Woodson ultimately recommended to Field Office Director Medina that Presti be demoted.
(Id. at p. 6.) Medina met with Presti on September 21, 2018 to notify her that she was being
demoted back to her prior position as an ISO. (Dkt. 74

33.) In Woodson’s final PPA for Presti’s

performance as SISO dated October 31, 2018, Woodson gave Presti the lowest possible rating“unacceptable”—in all categories. (PI. Ex. All.)
LEGAL STANDARD
Summary judgment is proper when “the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a); see, e.g.,Reed v. Columbia St. Mary’s Hosp., 915 F.3d 473, 485 (7th Cir. 2019). The parties
genuinely dispute a material fact when “the evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Daugherty v. Page, 906 F.3d 606,609-10 (7th Cir. 2018) (citing
Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986)). In determining whether a genuine
issue of material fact exists, the Court must view the evidence in the light most favorable to the

6

Case: l:18-cv-01710 Document #: 101 Filed: 02/20/20 Page 7 of 15 PagelD #:2264

non-moving party and draw all reasonable inferences in favor of the non-moving party.
Anderson, All U.S. at 255; see also Zander v. Orlich, 907 F.3d 956,959 (7th Cir. 2018). However,
“‘inferences that are supported only by speculation or conjecture will not defeat a summary
judgment motion.’” Herzog v. Graphic Packaging Intern., Inc., 742 F.3d 802, 806 (7th Cir. 2014)
(quoting Tubergen v. St. Vincent Hosp. & Health Care Ctr., Inc., 517 F.3d 470, 473
(7th Cir. 2008)).
DISCUSSION
I.

National Origin & Retaliation Claims

Title VII forbids an employer from taking an adverse employment action against an
individual on account of national origin or in retaliation against the individual’s protected activity.
42 U.SC. § 2000e; Naficy v. III. Dept, ofHuman Servs., 697 F.3d 504 (7th Cir. 2012). To determine
whether a plaintiff has a viable discrimination or retaliation claim, this Court asks whether all the
evidence, considered as a whole, would permit a reasonable factfinder to conclude that the
plaintiffs national origin or her earlier protected activity caused her adverse employment actions.
See Ortiz v. Werner Enter., 834 F.3d 760, 765 (7th Cir. 2016). A plaintiff can make out aprima
facie case for retaliation or discrimination by showing that (1) she is a member of a protected class,
(2) she performed her job to her employer’s legitimate expectations, (3) she suffered an adverse
employment action, and (4) her employer treated similarly situated individuals who were not
members of her protected class more favorably. Coleman v. Donahoe, 667 F.3d 835, 845
(7th Cir. 2012). If a plaintiff successfully makes out a prima facie case of retaliation or national
origin discrimination, the burden shifts to the defendant to articulate a legitimate, nondiscriminatory, non-retaliatory reason for an adverse employment action. Id. If the defendant does

7

Case: l:18-cv-01710 Document #: 101 Filed: 02/20/20 Page 8 of 15 PagelD #:2265

so, then the burden shifts back to the plaintiff to show that the employer’s articulated reason is
pretextual, “which in turn permits an inference of unlawful discrimination.” Id.
To prove a causal connection between a plaintiffs national origin and an adverse
employment action under 42 U.S.C. § 2000e-2(a), a plaintiff need only present evidence that “the
motive to discriminate was one of the employer’s motives, even if the employer had other, lawful
motives that were causative in the employer’s decision.” Univ. of Tex. SW Med. Ctr. v. Nassar,
570 U.S. 338, 342 (2013). By contrast, establishing a causal connection between an adverse
employment action and retaliation under 42 U.S.C. § 2000e-3(a) requires a plaintiff to show that
her “protected activity was a but-for cause of the alleged adverse action by the employer.”
Id. at 362.
An adverse employment action is ‘“some quantitative or qualitative change in the terms or
conditions of employment that is more than a mere subjective preference.’” Madlock v. WEC
Energy Grp., Inc., 885 F.3d 465 (7th Cir. 2018) (quoting Johnson v. Cambridge Indus., 325 F.3d
892, 901 (7th Cir. 2003). A demotion is a quintessential type of adverse employment action.
See, e.g., Hicks v. Forest Preserve Dist. of Cook Cty., 677 F.3d 781 (7th Cir. 2012). The failure to
promote is also an adverse employment action. Volovsek v. Wis. Dept, of Agr., Trade, and
Consumer Prot., 344 F.3d 680, 688 (7th Cir. 2003). A negative performance evaluation “does not
in itself constitute an adverse employment action,” but it may serve as evidence of discrimination
or evidence of pretext to suggest that the defendant’s articulated reasons for some other adverse
employment action are false. Sublett v. John Wiley & Sons, Inc., 463 F.3d 731 (7th Cir. 2006); see
also Grube v. Lau Indus., 257 F.3d 723, 729 (7th Cir. 2001) (“[Ujnfair reprimands or negative
performance evaluations, unaccompanied by some tangible job consequence, do not
constitute adverse employment actions.”).

8

Case: l:18-cv-01710 Document #: 101 Filed: 02/20/20 Page 9 of 15 PagelD #:2266

A.

2015 Performance Plan Appraisal (PPA)

Presti’s 2015 PPA cannot reasonably be described as negative. Indeed, she received an
overall rating of “Achieved Excellence.” Presti’s sole objection to the PPA that Dominguez wrote
is about some language used in the narrative section. Presti admits, however, that management
amended the narrative to her satisfaction after she noted her disagreement with it. To the extent
that Presti attempts to make out a claim for national origin discrimination or retaliation based on
the PPA, the Court grants Defendant’s Motion for Summary Judgment because there is no
remaining dispute between the parties as to the PPA. Even if such a dispute existed, a negative
performance evaluation does not in itself constitute an adverse employment action. Moreover,
Presti provides no evidence that Dominguez’s criticism of Presti’s communication style was really
pretext for animus against Italians.6 The Court, however, does consider the PPA as possible
circumstantial evidence in support of Plaintiff s other national origin discrimination claims.
B.

2015 Non-Selection for the ISO-3 Position

Presti’s non-selection for the ISO-3 position was an adverse employment action. The only
question then about her non-selection for purposes of this Motion is whether, based on all the
evidence presented to the Court, a reasonable jury could conclude that USCIS did not select her
for the position because of her Italian heritage or her earlier EEO activity.
a.

National Origin Discrimination Claim

In support of Presti’s contention that USCIS’s decision not to select her was motivated in
part by discrimination against her Italian heritage, Presti presents the following evidence. First,
several members of management, including the selecting officer, Thomas Cioppa, knew that she
was of Italian origin because she had informed them of her heritage. Second, USCIS selected

6 Indeed, Dominguez’s affidavit does not indicate that she knew Presti was from Italy. (PI. Ex. B14 at p. 211.)
9

Case: l:18-cv-01710 Document#: 101 Filed: 02/20/20 Page 10 of 15 PagelD #:2267

individuals of non-Italian origin, Tucker and Powers, for this position. Third, Presti received
constructive feedback in a PPA regarding the tone of her email communications to management.
Presti believes, without citing any evidence, that management’s distaste for her communication
style contributed to her non-selection. Even supposing, arguendo, that USCIS did not select Presti
for the promotion in part because of her communication style, Presti has failed to demonstrate why
that is not a legitimate factor for the Agency to consider when making hiring decisions. The ISO3 position requires strong communication skills; some individuals making hiring decisions thought
hers could be improved. It was reasonable and lawful for them to consider this issue as part of their
evaluation of her.
Even if the Court assumes that Presti has made out a prima facie case of discrimination,
USCIS has provided legitimate, non-discriminatory reasons for hiring others instead of her;
namely, that her reference and interview scores were lower than other qualified applicants.
Moreover, to the extent that her scores were lower because of the reviewers’ distaste for her
communication style, Presti has failed to demonstrate that the criticisms of her communication
skills were really a pretext for cultural animus or that such animus played any role in the selection
process. Even assuming that her scores were lower because the hiring SOP did not accurately
describe the need for two supervisory references, that mistake affected all applicants equally,
regardless of their ethnicity or other protected status. The Court therefore grants summary
judgment on the national origin discrimination count related to her non-selection for the ISO-3
position.
b.

Retaliation Claim

In support of her prima facie claim that retaliation was a but-for cause of her non-selection,
Presti has demonstrated that she is a member of a protected class (someone with EEO activity),

10

Case: l:18-cv-01710 Document #: 101 Filed: 02/20/20 Page 11 of 15 PagelD #:2268

she performed her job to her employer’s expectation, as evidenced by her “achieved excellence”
review, she suffered the adverse employment action of non-selection, and it appears that one of
her comparators, Thomas Powers, had no previous EEO activity. She has therefore made out a
prima facie case.
Although Presti adequately makes out a prima facie case, Defendant has articulated
legitimate, non-retaliatory reasons for choosing others for the ISO-3 position. Presti only presents
two .pieces of evidence supported by citations to the record tending to support an inference of
retaliation. First, she has filed EEO complaints against USCIS in that past. Second, USCIS
employees with influence over her hiring were aware of her prior EEO activity.7 Other evidence
in the record points to non-retaliatory reasons for Presti’s non-selection. For one, her combined
interview and references score placed her well below the highest scoring candidates, both of whom
were deemed eligible for the position by the Human Resources office in Vermont. Of course, Presti
complains that USCIS did not make her aware that she needed to provide two supervisory
references, which she claims negatively impacted her reference score. USCIS may have failed to
communicate the need for supervisory references only, but there is no indication that Presti alone
was the recipient of this poor communication; all candidates had access to the same hiring SOP
regardless of their prior EEO activity. Even if she had the opportunity to provide another
supervisory reference and even if that person had given her a perfect score, her total score still
would have fallen below the other candidates because of her lower interview score. Presti infers
that Nick Milissis’s knowledge of her prior EEO activity must have biased him against her in the
interview, but this is nothing but pure speculation. Indeed, Milissis signed an affidavit indicating

7 Presti also repeatedly alleges that someone at USCIS manipulated her application scores downward while others had
their scores raised. She provides no evidence for this assertion, so the Court does not consider that allegation for
purposes of this motion.

11

Case: l:18-cv-01710 Document#: 101 Filed: 02/20/20 Page 12 of 15 PagelD #:2269

that he thought Presti had a “good interview.” (PI. Ex. BIO at p. 188.) Presti’s speculation, without
more, is insufficient for this claim to survive the instant Motion. Based on the evidence before the
Court, no reasonable jury could conclude that a retaliatory motive was a but-for cause of USCIS’s
decision not to select Presti for the ISO-3 position.
The Court therefore grants Defendant’s Motion with respect to the retaliation claim related
to Presti’s non-selection for the ISO-3 position.
C.

2018 Demotion

Presti’s demotion from her position as SISO was another adverse employment action. The
only question about that demotion for purposes of this Motion then is whether, based on all the
evidence presented to the Court, a reasonable jury could conclude that USCIS demoted her because
of her Italian heritage or her earlier EEO activity.
a.

National Origin Discrimination

It is not clear whether Presti brings a national origin discrimination claim based on her
demotion, but to the extent she does, her primary evidence is the same evidence she presents in
support of her national origin claim for the 2015 non-selection; namely, she once received
constructive feedback regarding her communication style. This is insufficient evidence for a
reasonable jury to conclude that her demotion was motivated in part by discrimination against her
on the basis of her Italian heritage.
b.

Retaliation

Presti is unable to make out a prima facie case of retaliation for her demotion because she
does not point to any similarly situated individuals who had no prior protected activity and retained
a supervisory position. Assuming, however, that she has made out a primafacie claim, USCIS still
had legitimate, non-retaliatory reasons for demoting her. Woodson documented a variety of

12

Case: l:18-cv-01710 Document#: 101 Filed: 02/20/20 Page 13 of 15 PagelD #:2270

shortcomings in Presti’s performance as SISO, including her mismanagement of mandamus cases
and her failure to timely address Congressional inquiries. Woodson also thought that Presti
excessively micromanaged and needed to improve her relationships with her subordinates. Presti
even admits that she had trouble managing the workload. Additionally, prior to being demoted in
2018, but after filing three EEO complaints in 2008, 2013, and 2015, USCIS promoted her to the
position of SISO. The intervening act of promoting her tends to suggest that her demotion was not
retaliatory in nature. The years-long gap between her most recent EEO complaint and her demotion
also attenuates an inference of causation. On this record, no reasonable jury could conclude that
retaliation against her EEO activity was a but-for cause of Presti’s demotion. The Court therefore
grants Defendant’s Motion for Summary Judgment on all claims related to Presti’s 2018 demotion.
II.

Whistleblower Claim

Plaintiff brings a whistleblower retaliation claim under 5 U.S.C. § 2302(b)(8), stemming
from four purported whistleblowing actions8 she has taken over the course of her career at USCIS.
Unlawful retaliation claims under the Whistleblower Protection Act must first be filed with the
Office of Special Counsel. Delgado v. Merit Sys. Prot. Bd., 880 F.3d 913 (7th Cir. 2018) (“The
Whistleblower Protection Act instructs a whistleblower to ‘seek corrective action from the Special
Counsel before seeking corrective action from the [Merit Systems Protection Board].’”) (quoting
5 U.S.C. § 1214(a)(3)). Appeals from the Office of Special Counsel must be made with the Merit
Systems Protection Board (“MSPB”). 5 U.S.C. § 1214(a). Any appeal from the MSPB in a case
alleging whistleblower retaliation in violation of 5 U.S.C. § 2302(b)(8) must be made in the Court
of Appeals for the Federal Circuit. 5 U.S.C. § 7703(b)(1) (“[A] petition to review a final order or

8 The alleged whistleblower actions are: informing the General Services Administration that a fire alarm did not work
during an emergency evacuation, notifying the Office of Security and Integrity that her files had been mishandled,
complaining to management about the need to evacuate the office due to a protest, and notifying management about
an employee who she alleges manipulated a time entry sheet.

13

Case: l:18-cv-01710 Document#: 101 Filed: 02/20/20 Page 14 of 15 PagelD #:2271

final decision of the Board shall be filed in the United States Court of Appeals for the Federal
Circuit.”); Richards v. Kiernan, 461 F.3d 880, 886 (7th Cir. 2006) (noting that “any judicial review
of a final decision by the MSPB lies with the ... Federal Circuit, and not with the district courts”).
Thus, this Court has no jurisdiction over the whistleblower claims and must dismiss them for lack
ofjurisdiction.
III.

“Additional Retaliatory Actions”

In Plaintiffs brief in opposition to the instant Motion, she raises several additional
grievances against USCIS, ranging from the location of her office, to “delays in her requests for
ergonomics,” to certain trainings in which she was meant to participate being delayed. It appears
that by listing these grievances, Presti is attempting to raise additional claims. She is not permitted
to do so at this stage of the litigation, so the Court does not and cannot consider these additional
claims. See Clancy v. Office of Foreign Assets Control ofU.S. Dept of Treasury, 559 F.3d 595,
606-07 (7th Cir. 2009) (holding that the district court did not abuse its discretion by rejecting a
claim because the plaintiff raised it for the first time in response to a motion for summary
judgment).

14

Case: l:18-cv-01710 Document #: 101 Filed: 02/20/20 Page 15 of 15 PagelD #:2272

CONCLUSION
Presti has failed to meet her burden to establish that a reasonable jury could conclude that
national origin discrimination or retaliation against her protected activity caused her non-selection
for the ISO-3 position or her demotion. There is no genuine issue of material fact, and Defendant
is entitled to judgment as a matter of law on these claims. The Court also lacks jurisdiction over
Presti’s whistleblowers claims, and Presti’s other miscellaneous grievances are not properly before
the Court at this stage of the litigation. The Court therefore grants Defendant’s Motion for
Summary Judgment. [72]

* »

4

. Kendall
ii;
.itfed/ltates District Judge

irj

Date: February 20, 2020

15

